Lom
I
2311 Douglas Street CO C K L E

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site

No. 19-357

CITY OF CHICAGO, ILLINOIS,
Petitioner,
Vv.
ROBBIN L. FULTON, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
ASSOCIATION OF CHAPTER THIRTEEN TRUSTEES AS AMICUS CURIAE SUPPORTING
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 3878 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chk
‘ RENEE J. GOSS ). ¢ Deed rau- .
My Comm. Exp. September 5, 2023
Notary Public

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

www.cocklelegalbriefs.com
